                   --
                                   NATIONAL SCIENCE FOUNDATION
                                       4201 WILSON BOULEVARD
                                      ARLINGTON, VIRGINIA 22230         Case Close-out-




     OFFICE OF
INSPECTORGENERAL




MEMORANDUM                     +
                                        :.p-.:
                                      ,*-   >*%!

Date:      .   -   January 27,' 1999..:,:$:

To:                File N&.I95 100040

From:                                ,Investigations Student
Through:                              Assistant Inspector Ge

Re:                Case close-out-


Background

We received allegations t h a t w n d the other PI'S at the
         ad received NSF funding but had refused to allow
           Additionally, the complainant alleged that the PI'S have used their NSF funds
to smuggle illegal plants into the United States.

Findings

No evidence of fraud was found. This case is closed.
